CERTIFICATE OF SERVICE
No. TBD
Spielbauer Law Office
Petitioner,
v.
Midland Funding, LLC et al.
Respondent.
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the
SPIELBAUER LAW OFFICE PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by Fedex 2 Day, postage prepaid for delivery to the following addresses:
Leah Suzanne Strickland
Solomon Ward Seidenwurm & Smith, LLP
401 B Street, Suite 1200
San Diego, CA 92101
619.238.4816
lstrickland@swsslaw.com
Counsel for Midland Funding, LLC and.
Midland Credit Management Inc.

Lucas eDeus

January 19, 2021
SCP Tracking: Spielbauer-200 S. Market St - Cover White

